CASE NO.:_____
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020
BENJAMIN SMILEY,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, BENJAMIN SMILEY, asks leave to file the
accompanying
prepayment

of

Petition
costs

for
and

Writ

to

of

proceed

Certiorari
In

forma

without
pauperis.

Petitioner has been represented by court-appointed counsel
at trial in the State of Florida, Polk County, and in the
Florida

Supreme

Court

by

appointed

Counsel

Andrea

Norgard, the orders of which are appended to this motion.
/s/Robert A. Norgard
ROBERT A. NORGARD
Attorney at Law
P.O. Box 811
Bartow, FL 33831
863-533-8556
Fax 863-533-1334
Norgardlaw@verizon.net
Fla. Bar No. 322059
Counsel of Record
MEMBER OF THE BAR OF THE
UNITED STATES SUPREME COURT

1

M.

/s/Andrea M. Norgard
ANDREA M. NORGARD
Attorney at Law
P.O. Box 811
Bartow, FL 33831
863-533-8556
Fax 863-533-1334
Norgardlaw@verizon.net
Fla. Bar No. 0661066
Appointed Counsel of
Record-State of Florida

2

ORIGINAL
IN THE CIRCUIT COURT OF THE TENTH JUDICIAL CIRCUIT
IN AND FOR POLK COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,

v.

CASE NO.: CF15-004903-XX

BENJAMIN DAVIS SMILEY, JR.,
Defendant.

ORDER DECLARING DEFENDANT TO BE INDIGENT AND
ORDE11 APPOINTING OFFICE OF THE PUBLIC DEFENDER,
TENTH CIRCUIT, TO REPRESENT DEFENDANT FOR APPEAL
THIS CAUSE came before the Court on the Motion to Declare the Defendant to be
Indigent, and Motion to Appoint the Office of the Public Defender, Tenth Circuit, to Represent
Defendant for Appeal, filed by David R. Carmichael, Esquire, of Boswell & Dunlap, LLP. After
having reviewed the Motion, it is hereby

ORDERED AND ADJUDGED as follows:
A.

The Court continues to declare the Defendant, BENJAMIN DAVIS SMILEY, JR.,

("Smiley"), to be indigent. Accordingly, payment of filing fees for Smiley's appeal before the
Florida Supreme Court are waived.
2.
The Court relieves David R. Carmichael, as counsel for the Defendant before this
Court and before the Florida Supreme Court.

3.
The Court appoints the Office of the Public Defender, Tenth Circuit, to represent
Stephens before the Florida Supreme Court.

DONE AND ORDERED in Chambers at Bartow, Polk County, Florida on this the
day of (dartccp , 2018.
JAL L
Circu
u

dge

Copies to:
David R. Carmichael, Esquire
Benjamin D. Smiley, Jr.
Mary Elizabeth Kuenzel, Clerk of the Court, Florida Second District Court of Appeal
State Attorney's Office

Office of the Public Defender, Tenth Circuit
State of Florida, Office of the Attorney General

R EC E
l V E D A N D FI L E D

MAR 05 20?3
STACY M. BUTTERFIELD, CLERK

ORIGINAL
IN THE CIRCUIT COURT OF THE TENTH JUDICIAL CIRCUIT,
IN AND FOR POLK COUNTY, FLORIDA
CASE NO: SC18-385
Lower Tribunal No(s):
532015CF004903A000XX
BENJAMIN DAVIS SMILEY, JR.
Appellant(s)

vs.

STATE OF FLORIDA
Appellee(s)

ORDER APPOINTING CONFLICT-FREE COUNSEL
THIS MATTER came before this Court pursuant to the Supreme Court of Florida's Order
allowing the Office of Criminal Conflict and Civil Regional Counsel to withdraw as counsel for
the Appellant/Petitioner and for this Court to appoint conflict free counsel to represent the

Appellant/Petitioner in the appeal herein. Accordingly, it is

ORDERED AND ADJUDGED that the Andrea Norgard, Esquire, Counsel, is hereby
appointed to represent the Appellant/Petitioner in his appeal.

DONE AND ORDERED in Bartow, Polk County, Florida, this

IÀ

day of July,

2018.

JALAL .
Circuit ou Jud
Copies Furnished To:
Joseph Thye Sexton, Esquire, Office of Regional Counsel 2"4 District, P.O. Box 9000, Drawer RC2, Bartow, FL
33831-9000
Benjamin Davis Smiley, Jr., Defendant, DC #T72309, Florida State Prison-West Unit, P.O. Box 800, Raiford, FL
32083
Kristie Ducharme, Assistant State Attorney

C. Suzanne Bechard,.Office of Attorney General, Concourse Center #4, 3507 E. Frontage Rd. Suite 200, Tampa, FL
33602
John A. Tomasino, Clerk, Supreme Court of Florida, 500 S Duval St., Tallahassee, FL 32399-6556
Hon. Stacy M. Butterfiled, Clerk
Andrea Norgard, Esquire, P.O. Box 811, Bartow, FL 33831-0811, (863) 533-8556, Bar ID: 661066

